CREDIT CARD ACCOUNT AGREEMENT
AND FEDERAL DISCLOSURE STATEMENT
8805 University Boulevard
Moon Township, PA 15108

THIS IS YOUR CREDIT CARD AGREEMENT AND IT INCLUDES NECESSARY FEDERAL TRUTH-IN-LENDING
DISCLOSURE STATEMENTS, PLATINUM MASTERCARD®, PREMIUM WORLD™ MASTERCARD®, AND SECURED
PLATINUM MASTERCARD® AGREEMENTS, AND ANY SPECIAL INSTRUCTIONS REGARDING THE USE OF YOUR
PLATINUM MASTERCARD®, PREMIUM WORLD™ MASTERCARD®, AND SECURED PLATINUM MASTERCARD®
CREDIT CARDS, AND/OR ANY OTHER ACCOUNT ACCESS DEVICE. PLEASE BE CERTAIN TO READ THIS
AGREEMENT CAREFULLY AND NOTIFY US AT ONCE IF ANY PARTS ARE UNCLEAR.

Interest Rate and Interest Charges
Annual Percentage Rate (APR)
For Purchases

Platinum Mastercard®: ________%
Your APR will vary with the market based on the Prime Rate.
Premium World™ Mastercard®: ________% Introductory APR for 12 billing cycles.
After that Your APR will be ________%.
Your APR will vary with the market based on the Prime Rate.
Secured Platinum Mastercard®: ________%
Your APR will vary with the market based on the Prime Rate.

Annual Percentage Rate (APR)
For Balance Transfers

Platinum Mastercard®: __________%
Your APR will vary with the market based on the Prime Rate.
Premium World™ Mastercard®: __________%
Your APR will vary with the market based on the Prime Rate.
Secured Platinum Mastercard®: __________%
Your APR will vary with the market based on the Prime Rate.

Annual Percentage Rate (APR)
For Cash Advances

Platinum Mastercard®: ________%
Your APR will vary with the market based on the Prime Rate.
Premium World™ Mastercard®: ________%
Your APR will vary with the market based on the Prime Rate.
Secured Platinum Mastercard®: ________%
Your APR will vary with the market based on the Prime Rate.

Paying Interest

We will not charge You interest on purchases if You pay Your entire balance owed each
month within 25 days from Your statement closing date. We will begin charging interest on
cash advances and balance transfers on the transaction date.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a Credit Card,
visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

Fees
Transaction Fees




Balance Transfer
Cash Advance
Foreign Transaction

4.00% of each transfer
3.00% of each advance.
Up to 2.00% of each foreign currency transaction in U.S. Dollars.
Up to 2.00% of each U.S. Dollar transaction that occurs in a foreign country.

Penalty Fees
 Late Payment
 Returned Payment

Up to $35.00
Up to $35.00

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases)." See Your
Account Agreement for details.
Billing Rights: Information on Your rights to dispute transactions and how to exercise those rights is provided in Your
Account Agreement.
Copyright Oak Tree Business Systems, Inc., 2018-2021. All Rights Reserved.

Page 1 of 4

OTBS 016CC-Variable FRB_Web CLEA (4/21)

DEFINITIONS. In this Agreement, the references to "We," "Us," "Our" and "Credit Union" mean Clearview Federal Credit Union. The words "You" and "Your" mean each person
who accepts this Agreement or uses the Platinum Mastercard ®, Premium World™ Mastercard®, and Secured Platinum Mastercard® Credit Card(s). The words "Card" and
"Credit Card" mean the Platinum Mastercard®, Premium World™ Mastercard®, and Secured Platinum Mastercard® Credit Card issued to You by Us and any duplicates or
renewals. "Convenience Checks" mean the special Account access devices that We may provide for Your use from time to time. If this is a joint Account, read singular pronouns
in the plural.
PROMISE TO PAY. You, as the Borrower, under a Credit Card Agreement ("Account"), understand that the following terms and conditions constitute Our Agreement with You.
Your Account may be accessible through a variety of means which could include advance request forms, vouchers, checks, charge slips, convenience checks, Credit Cards
and the like. Regardless of the access means, You promise to pay Us all amounts charged to Your Account by You or by any user who has access to Your Account, with actual,
apparent or implied authority for use of Your Account, including Finance Charges and other fees or charges described herein.

Variable Rate
Credit Card
Platinum Mastercard®

Index

Margin

Monthly Periodic Rate
for Purchases

ANNUAL PERCENTAGE RATE
for Purchases

__________%

__________%

__________%

__________%

Premium World™

Mastercard®

__________%

__________%

__________%

__________%

Secured Platinum

Mastercard®

__________%

__________%

__________%

__________%

Variable Rate
Index

Margin

Monthly Periodic Rate
for Balance Transfers

ANNUAL PERCENTAGE RATE
for Balance Transfers

Platinum Mastercard®

__________%

__________%

__________%

__________%

Premium World™ Mastercard®

__________%

__________%

__________%

__________%

Secured Platinum Mastercard®

__________%

__________%

__________%

__________%

Credit Card

Variable Rate
Credit Card
Platinum Mastercard®

Index

Margin

Monthly Periodic Rate
for Cash Advances

ANNUAL PERCENTAGE RATE
for Cash Advances

__________%

__________%

__________%

__________%

Premium World™

Mastercard®

__________%

__________%

__________%

__________%

Secured Platinum

Mastercard®

__________%

__________%

__________%

__________%

USE OF YOUR CARD. You may use Your Card to buy goods and services in any
place that it is honored and to get cash advances at participating financial institutions.
You agree not to use Your Card for illegal transactions including, but not limited to,
advances made for the purpose of gambling and/or wagering where such practices
are in violation of applicable state and/or federal law.
SECURITY. You acknowledge that You own any shares and/or collateral pledged as
security and that there are no other liens against them other than Ours. You agree
to perform all acts which are necessary to make Our security interest in the shares
and/or collateral being pledged enforceable.
OTHER SECURITY. Collateral (other than household goods or any dwelling) given
as security under this Agreement or for any other loan You may have with Us will
secure all amounts You owe Us now and in the future if that status is reflected in the
"Truth-In-Lending Disclosure" in any particular Agreement evidencing such debt.
LIEN ON SHARES. You grant and consent to a lien on Your shares with
Us (except for IRA and Keogh accounts) and any dividends due or to
become due to You from Us to the extent You owe on any unpaid Credit
Card balance.
ACCOUNT RESTRICTIONS. In order to receive and maintain a Secured Platinum
Mastercard® Credit Card, You agree to give Us a specific pledge of shares which
will equal Your approved Credit Limit. In the event that You default on Your Account,
We may apply these shares toward the repayment of any amount owed on Your
Secured Platinum Mastercard® Credit Card. You may cancel Your Secured Platinum
Mastercard® Credit Card at any time by paying any amounts owed on such Account.
To be certain that Your entire balance and all advances are paid, any shares pledged
may not be available to You for 30 days after You have cancelled and any
outstanding balance is paid in full.
LINE OF CREDIT LIMITS. You will be notified of each specific Credit Limit for each
Credit Card for which You are approved. Unless You are in default, any Credit Limits
established for You will generally be self-replenishing as You make payments.
You will keep Your unpaid balance within Your Credit Limit set by Us, and You
understand that We may decline any transaction that would exceed that Credit
Limit. In addition, You will pay any amount over Your Credit Limit on Our demand
whether or not We authorize the advances which caused You to exceed Your
Credit Limit. Even if Your unpaid balance is less than Your Credit Limit, You will
Copyright Oak Tree Business Systems, Inc., 2018-2021. All Rights Reserved.

have no credit available during any time that any aspect of Your Account is
in default.
JOINT ACCOUNTS. Each Borrower will be responsible, jointly and severally, for the
repayment of any amounts owed. If any Account access device, such as a Personal
Identification Number (PIN) is requested and approved, You understand that any
such Account access device(s) will be mailed only to the primary Borrower at the
address that We have on file for You. We may refuse to follow any instructions which
run counter to this provision.
MINIMUM MONTHLY PAYMENTS (PAYMENT SCHEDULE). Though You need
only pay the Minimum Monthly Payments, You understand that You have the right
to repay at any time without penalty. You also understand that You will only be
charged periodic Finance Charges to the date You repay Your entire balance. You
may make larger payments without penalty. Any partial payment or prepayment
will not delay Your next scheduled payment. All payments to Us must be in lawful
money of the United States. Unless instructed otherwise, We may apply each
payment to whichever Card We wish. Except as required by law, the order in which
We may apply payments is at Our discretion.
Any unpaid portion of the Finance Charge will be paid by subsequent payments and
will not be added to Your principal balance. You understand that any delay in the
repayment of Your unpaid balance will increase Your periodic Finance Charges and
any acceleration in the repayment of Your unpaid balance will decrease Your
periodic Finance Charges.
Platinum Mastercard®, Premium World™ Mastercard®, and Secured Platinum
Mastercard® Minimum Payments will be an amount equal to 2.00% of Your new unpaid
Platinum Mastercard®, Premium World™ Mastercard®, or Secured Platinum
Mastercard® balance at the end of each billing cycle, subject to the lesser of $20.00 or
Your balance, plus any portion of the Minimum Payments shown on prior statement(s)
which remains unpaid, plus any amount that exceeds Your approved Credit Limit.
You may, by separate agreement, authorize Us to charge Your payment directly to
Your share or share draft account.
LATE CHARGE. If Your payment is one or more days late, You will be charged the
lesser of: (a) $25.00 (this amount will be $35.00 if You have incurred a late charge
within 6 months of previously incurring a late charge); or (b) the amount of the
required minimum payment.

Page 2 of 4

OTBS 016CC-Variable FRB_Web CLEA (4/21)

RETURNED PAYMENT FEE. You will be charged a fee for any check (or other
negotiable instrument used for payment) which is returned unpaid. The fee will be
an amount equal to the lesser of: (a) $25.00 (this amount will be $35.00 if You
have incurred a returned payment fee within 6 months of previously incurring a
returned payment fee); or (b) the required minimum payment amount for the
returned payment.
OTHER FEES AND CHARGES. You will be charged the following fees associated
with the use of Your Card: (a) $30.00 for each replacement Card that You request
be provided on an expedited basis; (b) $5.00 for each replacement Personal
Identification Number (PIN) that You request; (c) $5.00 for each sales draft or
statement copy You request; (d) a cash advance fee FINANCE CHARGE in an
amount equal to 3.00% of each advance obtained at a financial institution and/or
ATM; and (e) a balance transfer fee FINANCE CHARGE in an amount equal to
4.00% of each such transfer.
FINANCE CHARGES. In the case of any transactions under Your Platinum
Mastercard®, Premium World™ Mastercard®, and Secured Platinum Mastercard®,
the balances subject to the periodic Finance Charge are the average daily
transactions balances outstanding during the month (including new transactions).
To get the average daily balance, We take the beginning balance each day, add any
new purchases, cash advances, balance transfers, insurance premiums, debit
adjustments or other charges and subtract any payments, credits and unpaid
Finance Charges. This gives Us the daily balance. Then, We add up all the daily
balances for the billing cycle and divide them by the number of days in the billing
cycle. The Finance Charge for a billing cycle is computed by multiplying the average
daily balance subject to a Finance Charge by the Monthly Periodic Rate.
You can avoid Finance Charges on purchases by paying the full amount of the
entire balance owed each month within 25 days of Your statement closing date.
Otherwise, the new balance of purchases, and subsequent purchases from the
date they are posted to Your Account, will be subject to a Finance Charge. Cash
advances and balance transfers are always subject to a Finance Charge from the
date of the transaction.
During the first 12 billing cycles following the date that You establish a Premium
World™ Mastercard® Credit Card, Your entire balance for purchases will be subject
to a Monthly Periodic Rate of _____________% (corresponding to an ANNUAL
PERCENTAGE RATE of _____________%). Upon the expiration of the Introductory
Rate period, the Monthly Periodic Rate applicable to Your entire balance of
purchases existing at that time and in the future will immediately increase to
__________% (corresponding ANNUAL PERCENTAGE RATE of _________%).
VARIABLE RATE. All advances are subject to a Variable Rate which is based on
the highest Prime Rate as published in the money rates section of The Wall Street
Journal in effect on the day that any Introductory Rate Period expires, and
subsequently, on the last day of each month of each year ("Index") plus Our
Margin. The Index plus the Margin equals the Interest Rate. Changes in the Index
will cause changes in the Interest Rate on the day that any Introductory Rate
Period expires, and subsequently, on the first day of the billing cycle immediately
following any such change in the Index. Increases or decreases in the Interest
Rate will cause like increases or decreases in the Finance Charge and will affect
the number of Your regularly scheduled payments. Your Interest Rate will never
be greater than 18.00%, and will apply to Your remaining principal balance.
PERIODIC STATEMENTS. On a regular basis, You will receive a statement
showing all transactions on Your Account including amounts paid and borrowed
since Your last statement. We will mail You a statement each month in which
there is a debit or credit balance or when a Finance Charge is imposed. We
need not send You a statement if We feel Your Account is uncollectible or if We
have started collection proceedings against You because You defaulted. Each
statement is deemed to be a correct statement of account unless You establish
a billing error pursuant to the Federal Truth-In-Lending Act.
OUR RESPONSIBILITIES TO HONOR CONVENIENCE CHECKS. We are under
no obligation to honor Your Convenience Checks if: (1) by paying a Convenience
Check, You would exceed Your Credit Limit; (2) Your Cards or Convenience Checks
have been reported lost or stolen; (3) Your Account has been cancelled or has
expired. If a postdated Convenience Check is paid and, as a result, any other
Convenience Check is returned unpaid, We are not responsible for any resulting loss
or liability.
DEFAULT. You will be in default if: (a) You do not make any payment or perform any
obligation under this Agreement, or any other agreement that You may have with Us;
or (b) You should die, become involved in any insolvency, receivership or custodial
proceeding brought by or against You; or (c) You have made a false or misleading
statement in Your credit application and/or in Your representations to Us while You
owe money on Your Account; or (d) A judgment or tax lien should be filed against
You or any attachment or garnishment should be issued against any of Your property
or rights, specifically including anyone starting an action or proceeding to seize any
of Your funds on deposit with Us; and/or (e) We should, in good faith, believe Your
ability to repay Your indebtedness hereunder is or soon will be impaired, time being
of the very essence.
Copyright Oak Tree Business Systems, Inc., 2018-2021. All Rights Reserved.

Upon any occurrence of default, We may, to the extent permitted by law, cancel
Your rights under this Agreement, require the return of all access devices and
declare the entire balance of Your Account immediately due and payable, without
prior notice or demand.
COLLECTION COSTS. In the event collection efforts are required to obtain payment
on this Account, and to the extent permitted by law, You agree to pay all court costs,
private process server fees, investigation fees or other costs incurred in collection
and reasonable attorneys’ fees incurred in the course of collecting any amounts
owed under this Agreement or in the recovery of any collateral.
ENFORCEMENT. We do not lose Our rights under this or any related agreement if
We delay enforcing them. We can accept late payments, partial payments or any
other payments, even if they are marked "paid in full" without losing any of Our rights
under this Agreement. If any provision of this or any related agreement is determined
to be unenforceable or invalid, all other provisions remain in full force and effect.
NOTIFICATION OF ADDRESS CHANGE. You will notify Us promptly if You move
or otherwise have a change of address.
CHANGE IN TERMS. We may change the terms of this Agreement by mailing or
delivering to You written notice of the changes as prescribed by the Federal TruthIn-Lending Act. To the extent permitted by law, the right to change the terms of this
Agreement includes, but is not limited to, the right to change the periodic rate
applicable to Your unpaid balance and/or future advances.
INTEGRATED DOCUMENTS. Any separate sheet of paper that pertains to Your
Account, and is delivered together with this Agreement or at a later date becomes
an integrated part of this Agreement and Disclosure.
CONSENT TO AGREEMENT. You acknowledge receipt of a copy of this Agreement.
By signing the application; or by using Your Account or any Account access device;
or by authorizing another to use Your Account, You agree to and accept its terms.
UPDATING AND DISCLOSING FINANCIAL INFORMATION. You will provide facts
to update information contained in Your original Account application or other financial
information related to You, at Our request. You also agree that We may, from time
to time, as We deem necessary, make inquiries pertaining to Your employment,
credit standing and financial responsibility in accordance with applicable laws and
regulations. You further agree that We may give information about the status and
payment history of Your Account to consumer credit reporting agencies, a prospective
employer or insurer, or a state or federal licensing agency having any apparent
legitimate business need for such information.
TERMINATION. Either You or We may cancel Your Account or any particular Credit Card
of Your Account, at any time, whether or not You are in default. You will, in any case,
remain liable to pay any unpaid balances according to the terms of Your Account.
GOVERNING LAW. This Agreement is controlled and governed by the laws of the
Commonwealth of Pennsylvania except to the extent that such laws are inconsistent
with controlling federal law.
OWNERSHIP. Your Card remains Our property and may be cancelled by Us at any
time without notice. You agree to surrender Your Card and to discontinue its use
immediately upon Our request.
ISSUANCE OF A PERSONAL IDENTIFICATION NUMBER. We will issue, upon
Your request, a Personal Identification Number (PIN) for use with participating
ATMs. This PIN is confidential and should not be disclosed to anyone. You may
use Your PIN to access Your Account and all sums advanced will be added to
Your balance. In the event a use of Your PIN constitutes an Electronic Fund
Transfer, the terms and conditions of Your Electronic Fund Transfer Agreement
may also affect Your rights.
EFFECT OF AGREEMENT. Even though the sales, cash advance, credit or other
slips You may sign or receive when using Your Card contain terms, this Agreement
is the contract which solely applies to all transactions involving the Card.
UNAUTHORIZED USE. You may be liable for the unauthorized use of Your Card.
You will not be liable for the unauthorized use that occurs after You notify Us of the
loss, theft, or possible unauthorized use by calling Us at (800) 449-7728 or by writing
to Us at the address shown in this Agreement. In any case, Your liability will not
exceed $50.00.
REFUSAL TO HONOR CARDS OR CONVENIENCE CHECKS. We are not liable
for the refusal or inability of merchants, financial institutions and others to
accept the Cards or Convenience Checks, or electronic terminals to honor the
Cards or complete a Card withdrawal, or for their retention of the Cards or
Convenience Checks.
FOREIGN TRANSACTIONS (EXCEPT PREMIUM WORLD™ MASTERCARD ®).
For transactions initiated in foreign currencies, the exchange rate between
the transaction currency and the billing currency (U.S. dollars) will be: (a) a

Page 3 of 4

OTBS 016CC-Variable FRB_Web CLEA (4/21)

rate selected by Mastercard from the range of rates available in wholesale
currency markets for the applicable central processing date, which rate may
vary from the rate Mastercard itself receives; or (b) the government-mandated
rate in effect for the applicable central processing date. For transactions
initiated in a foreign currency, and for transactions occurring in foreign
countries and initiated in U.S. Dollars, You will be charged 2.00% of the final
settlement amount.

2)

While We investigate whether or not there has been an error:
•
•

TRANSACTION SLIPS. Your monthly statement will identify that merchant,
electronic terminal or financial institution at which transactions were made, but sales,
cash advances, credit or other slips cannot be returned with the statement.

•
•

LOST CARDS OR CONVENIENCE CHECKS. To report lost or stolen Credit
Cards or Convenience Checks, You will immediately call Us at (800) 449 -7728
or write to Us at the address shown in this Agreement.

Your Billing Rights: Keep this Document for Future Use
This notice tells You about Your rights and Our responsibilities under the Fair
Credit Billing Act.
What To Do If You Find A Mistake On Your Statement

•

Account information: Your name and Account number.
Dollar amount: The dollar amount of the suspected error.
Description of problem: If You think there is an error on Your bill, describe
what You believe is wrong and why You believe it is a mistake.

You must contact Us:
•
•

Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If You are dissatisfied with the goods or services that You have purchased with Your
Credit Card, and You have tried in good faith to correct the problem with the
merchant, You may have the right not to pay the remaining amount due on the
purchase. To use this right, all of the following must be true:
1)

Within 60 days after the error appeared on Your statement.
At least 3 business days before an automated payment is scheduled, if You
want to stop payment on the amount You think is wrong.
2)

You must notify Us of any potential errors in writing. You may call Us, but if You do
We are not required to investigate any potential errors and You may have to pay the
amount in question.
What Will Happen After We Receive Your Letter

If We made a mistake: You will not have to pay the amount in question or any
interest or other fees related to that amount.
If We do not believe there was a mistake: You will have to pay the amount
in question, along with applicable interest and fees. We will send You a
statement of the amount You owe and the date payment is due. We may
then report You as delinquent if You do not pay the amount We think You owe.

If You receive Our explanation but still believe Your bill is wrong, You must write to
Us within 10 days telling Us that You still refuse to pay. If You do so, We cannot
report You as delinquent without also reporting that You are questioning Your bill.
We must tell You the name of anyone to whom We reported You as delinquent, and
We must let those organizations know when the matter has been settled between
Us. If We do not follow all of the rules above, You do not have to pay the first $50.00
of the amount You question even if Your bill is correct.

If You think there is an error on Your statement, write to Us at Our address shown in
this Agreement. In Your letter, give Us the following information:
•
•
•

We cannot try to collect the amount in question, or report You as delinquent
on that amount.
The charge in question may remain on Your statement, and We may continue
to charge You interest on that amount.
While You do not have to pay the amount in question, You are responsible for
the remainder of Your balance.
We can apply any unpaid amount against Your Credit Limit.

After We finish Our investigation, one of two things will happen:
•

CREDITS. If a merchant who honors Your Card gives You credit for returns or
adjustments, they will do so by sending Us a slip which will be posted to Your Account.
If Your credits and payments exceed what You owe Us, We will hold and apply this
credit against future purchases and cash advances, or if it is $1.00 or more refund it on
Your written request or automatically deposit it to Your share account after six months.

Within 90 days of receiving Your letter, We must either correct the error or
explain to You why We believe the bill is correct.

3)

The purchase must have been made in Your home state or within 100 miles
of Your current mailing address, and the purchase price must have been
more than $50.00. (Note: Neither of these are necessary if Your purchase
was based on an advertisement We mailed to You, or if We own the company
that sold You the goods or services.)
You must have used Your Credit Card for the purchase. Purchases made with
cash advances from an ATM or with a check that accesses Your Credit Card
account do not qualify.
You must not yet have fully paid for the purchase.

If all of the criteria above are met and You are still dissatisfied with the purchase,
contact Us in writing at Our address shown in this Agreement.

When We receive Your letter, We must do two things:
1)

Within 30 days of receiving Your letter, We must tell You that We received Your
letter. We will also tell You if We have already corrected the error.

Copyright Oak Tree Business Systems, Inc., 2018-2021. All Rights Reserved.

While We investigate, the same rules apply to the disputed amount as discussed above.
After We finish Our investigation, We will tell You Our decision. At that point, if We think
You owe an amount and You do not pay, We may report You as delinquent.

Page 4 of 4

OTBS 016CC-Variable FRB_Web CLEA (4/21)

PRICING INFORMATION ADDENDUM –
CREDIT CARD ACCOUNT AGREEMENT
AND FEDERAL DISCLOSURE STATEMENT
8805 University Boulevard
Moon Township, PA 15108

THIS IS YOUR ADDENDUM THAT CONTAINS PRICING INFORMATION FOR YOUR PLATINUM MASTERCARD®,
PREMIUM WORLD™ MASTERCARD®, AND SECURED PLATINUM MASTERCARD® CREDIT CARD AGREEMENT
AND DISCLOSURE. PLEASE BE SURE TO READ THIS ADDENDUM CAREFULLY AND NOTIFY US AT ONCE IF ANY
PARTS ARE UNCLEAR.

Interest Rate and Interest Charges
Annual Percentage Rate (APR)
For Purchases

Platinum Mastercard®: 9.24% - 18.00% based on Your creditworthiness at the
time You establish Your Account.
Your APR will vary with the market based on the Prime Rate.
Premium World™ Mastercard®: 0.00% Introductory APR for 12 billing cycles.
After that Your APR will be 12.25% - 18.00% based on Your creditworthiness at
the time You establish Your Account.
Your APR will vary with the market based on the Prime Rate.
Secured Platinum Mastercard®: 9.24% - 18.00% based on Your creditworthiness at
the time You establish Your Account.
Your APR will vary with the market based on the Prime Rate.

Annual Percentage Rate (APR)
For Balance Transfers

Platinum Mastercard®: 9.24% - 18.00% based on Your creditworthiness at the time You
establish Your Account.
Your APR will vary with the market based on the Prime Rate.
Premium World™ Mastercard®: 12.25% - 18.00% based on Your creditworthiness at the time
You establish Your Account.
Your APR will vary with the market based on the Prime Rate.
Secured Platinum Mastercard®: 9.24% - 18.00% based on Your creditworthiness at the time
You establish Your Account.
Your APR will vary with the market based on the Prime Rate.

Annual Percentage Rate (APR)
For Cash Advances

Platinum Mastercard®: 9.24% - 18.00% based on Your creditworthiness at the time You
establish Your Account.
Your APR will vary with the market based on the Prime Rate.
Premium World™ Mastercard®: 12.25% - 18.00% based on Your creditworthiness at the
time You establish Your Account.
Your APR will vary with the market based on the Prime Rate.
Secured Platinum Mastercard®: 9.24% - 18.00% based on Your creditworthiness at the time
You establish Your Account.
Your APR will vary with the market based on the Prime Rate.

Paying Interest

We will not charge You interest on purchases if You pay Your entire balance owed each
month within 25 days from Your statement closing date. We will begin charging interest on
cash advances and balance transfers on the transaction date.

Fees
Transaction Fees




Balance Transfer
Cash Advance
Foreign Transaction

4.00% of each transfer.
3.00% of each advance.
Up to 2.00% of each foreign currency transaction in U.S. Dollars.
Up to 2.00% of each U.S. Dollar transaction that occurs in a foreign country.

Penalty Fees
 Late Payment
 Returned Payment

Up to $35.00
Up to $35.00

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases)." See Your
Account Agreement for details.
Billing Rights: Information on Your rights to dispute transactions and how to exercise those rights is provided in Your
Account Agreement.
Copyright Oak Tree Business Systems, Inc., 2018-2021. All Rights Reserved.

Page 1 of 2

OTBS 016A CC-Variable FRB_WEB CLEA (4/21)

FINANCE CHARGES. In the case of any transactions under Your Platinum Mastercard ®, Premium World™ Mastercard®, and Secured Platinum Mastercard®, Credit Card,
the balances subject to the periodic Finance Charge are the average daily transactions balances outstanding during the month (including new transactions). To get the average
daily balance, We take the beginning balance each day, add any new purchases, cash advances, balance transfers, insurance premiums, debit adjustments or other charges
and subtract any payments, credits and unpaid Finance Charges. This gives Us the daily balance. Then, We add up all the daily balances for the billing cycle and divide them
by the number of days in the billing cycle. The Finance Charge for a billing cycle is computed by multiplying the average daily balance subject to a Finance Charge by the
Monthly Periodic Rate.
You can avoid Finance Charges on purchases by paying the full amount of the entire balance owed each month within 25 days of Your statement closing date. Otherwise,
the new balance of purchases, and subsequent purchases from the date they are posted to Your Account, will be subject to a Finance Charge. Cash advances and balance
transfers are always subject to a Finance Charge from the date of the transaction.
For Platinum Mastercard®, balances for purchases will accrue Finance Charges at a Monthly Periodic Rate of 0.770% - 1.500% (corresponding ANNUAL PERCENTAGE
RATE of 9.24% - 18.00%), based on Your creditworthiness at the time You establish Your Account. Balance transfer transactions will accrue Finance Charges at a Monthly
Periodic Rate of 0.7700% - 1.500% (corresponding ANNUAL PERCENTAGE RATE of 9.24% - 18.00%), based on Your creditworthiness at the time You establish Your
Account. Balances for cash advances will accrue Finance Charges at a Monthly Periodic Rate of 0.770% - 1.500% (corresponding ANNUAL PERCENTAGE RATE of 9.24%
- 18.00%), based on Your creditworthiness at the time You establish Your Account.
For Premium World™ Mastercard® purchase transactions, during the first 12 billing cycles following the date that You establish a Premium World™ Mastercard® Credit Card,
Your entire balance for purchases will be subject to a Monthly Periodic Rate of 0.0000% (corresponding ANNUAL PERCENTAGE RATE 0.0000%). Upon the expiration of
the Introductory Rate period, the Monthly Periodic Rate applicable to Your entire balance of purchases existing at that time and in the future will immediately increase to
1.0208% - 1.5000% (corresponding ANNUAL PERCENTAGE RATE of 12.25% - 18.00%), based on Your creditworthiness at the time You establish Your Account. Balance
transfer transactions will accrue Finance Charges at a Monthly Periodic Rate of 1.0208% - 1.500% (corresponding ANNUAL PERCENTAGE RATE of 12.25% - 18.00%),
based on Your creditworthiness at the time You establish Your Account. Balances for cash advances will accrue Finance Charges at a Monthly Periodic Rate of 1.0208% 1.5000% (corresponding ANNUAL PERCENTAGE RATE of 12.25% - 18.00%), based on Your creditworthiness at the time You establish Your Account.
E34For Secured Platinum Mastercard®, balances for purchases will accrue Finance Charges at a Monthly Periodic Rate of 0.770% - 1.500% (corresponding ANNUAL
PERCENTAGE RATE of 9.24% - 18.00%), based on Your creditworthiness at the time You establish Your Account. Balance transfer transactions will accrue Finance Charges
at a Monthly Periodic Rate of 0.7700% - 1.500% (corresponding ANNUAL PERCENTAGE RATE of 9.24% - 18.00%), based on Your creditworthiness at the time You establish
Your Account. Balances for cash advances will accrue Finance Charges at a Monthly Periodic Rate of 0.770% - 1.500% (corresponding ANNUAL PERCENTAGE RATE of
9.24% - 18.00%), based on Your creditworthiness at the time You establish Your Account.
VARIABLE RATE. All advances are subject to a Variable Rate which is based on the highest Prime Rate as published in the money rates section of The Wall Street Journal
in effect on the day that any Introductory Rate Period expires, and subsequently, on the last day of each month of each year ("Index") plus Our Margin. The Index plus the
Margin equals the Interest Rate. Changes in the Index will cause changes in the Interest Rate on the day that any Introductory Rate Period expires, and subsequently, on the
first day of the billing cycle immediately following any such change in the Index. Increases or decreases in the Interest Rate will cause like increases or decreases in the
Finance Charge and will affect the number of Your regularly scheduled payments. Your Interest Rate will never be greater than 18.00%, and will apply to Your remaining
principal balance.
For Premium World™ Mastercard®, the Margin will be 9.00% - 15.00% depending on Your creditworthiness. For Platinum Mastercard® and Secured Platinum Mastercard®,
the Margin will be 5.99% - 14.75%, depending on Your creditworthiness.

Copyright Oak Tree Business Systems, Inc., 2018-2021. All Rights Reserved.

Page 2 of 2

OTBS 016A CC-Variable FRB_WEB CLEA (4/21)

